CERTIFICATE OF SERVICE
NO. TBD
Moussa Diarra
Petitioner(s)
v.
City of New York
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MOUSSA
DIARRA PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Jamieson Davies
New York Law Department
100 Church St.
New York, NY 10007
(212) 356-2450
jdavies@law.nyc.gov
Counsel for City of New York

Lucas DeDeus

October 25, 2019
SCP Tracking: Sibanda, Esq.-P.O. Box 714-Cover White

